V
CERTIFICATE OF COMPLIANCE
NO.

Xiao-Ying Yu
Petitioner
v.
Maryland Department of Health, Secretary Robert R. Neal, and
Maryland Department of Budget and Management,
Secretary David Brinkley

Respondent.

As required by Supreme Court Rule 33.1(h), I certify that the Petition for
Writ of Certiorari contains 9,000 words, excluding the parts of the petition
that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the forgoing is true and correct.
Executed on August 23, 2019

Xiao-Ying Yu, pro se.
Mailing address
P.O. Box 293
Abingdon, MD 21009
(410)671-9823
August 23, 2019

